No. 19A266

In The
SUPREME COURT OF THE UNITED STATES

MICHAEL BAKER,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.

SECOND APPLICATION FOR EXTENSION
OF TIME TO FILE PETITION FOR WRIT OF
CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

Before the Honorable Samuel Alito

DENNIS P. RIORDAN
Counsel of Record
RIORDAN & HORGAN
1611 Telegraph Avenue
Suite 806
Oakland, CA 94612
Attorney for Petitioner
MICHAEL BAKER

To the Honorable Samuel Alito, Associate Justice of the United States
Supreme Court and Circuit Justice for the Fifth Circuit:
This Court previously granted petitioner a thirty-day extension of time, to
and including October 25, to file his petition for a writ of certiorari in this matter.
Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,
petitioner hereby moves for an additional twenty-eight day extension of time, to
and including November 22, 2019, to file the petition. As set forth further below,
this motion is founded primarily on petitioner’s association of new counsel,
Alexandra Shapiro, for purposes of preparing and presenting the petition to this
Court.
Procedural History
A three judge panel of the Fifth Circuit Court of Appeals filed its amended
decision denying petitioner’s appeal from his convictions in this matter on April
26, 2019. (See Exhibit A [April 26 decision].) Petitioner timely filed a petition for
rehearing en banc as to that decision.
On June 27, 2019, the same Fifth Circuit panel issued an order denying the
petition for rehearing en banc. (See Exhibit B [June order].) Accordingly,
petitioner’s time to petition for certiorari in this Court was initially scheduled to
expire on September 25, 2019. More than 10 days prior to that date, petitioner
1

moved this Court for a thirty-day extension of time, to and including October 25,
2019, to file the petition. On September 6, this Court granted the initial extension
request. (See Exhibit C [Court’s Sept 6 letter order].)
The present application is being filed more than 10 days before the present
October 25, 2019 due date. See Supreme Court Rules 13.5 and 30.2.
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
The Decision Below
The Fifth Circuit panel affirmed petitioner’s conviction for wire fraud and
securities fraud. Petitioner’s claim on appeal centers on the meaning of the phrase
“obtain property,” as it is used in the wire and securities fraud statutes.
This Court has held that when common-law terms appear in federal statutes,
they should ordinarily be interpreted and applied in accordance with their
common-law meanings. See Neder v. United States, 527 U.S. 1, 23 (1999). In
other federal criminal statutes, this Court has held that the phrase “obtain
property” has a clear common-law meaning. Honeycutt v. United States, 137 S.
Ct. 1626, 1632 (2017); Sekhar v. United States, 570 U.S. 729, 734 (2013). It
requires that the defendant seeks to acquire something that the victim gives up.
At his trial, petitioner requested that the jury be instructed accordingly. The
district court rejected the request, and the Fifth Circuit affirmed that ruling. It held
2

that this Court’s decisions in Honeycutt, Sekhar, and other cases do not apply to
the federal fraud statutes. It held, in other words, that the phrase “obtain property”
has a different and broader meaning in the fraud statutes—and it declined to apply
the common-law meaning.
This Court has yet to address whether the ordinary presumption in favor of
common-law meanings applies to the wire and securities fraud statutes. Given the
centrality of the wire and securities fraud statutes in federal criminal practice, this
is an important issue meriting consideration by this Court.
Basis for Application and Declaration of Counsel
In support of this application, Dennis P. Riordan hereby declares under
penalty of perjury as follows:
1. I am counsel of record for petitioner Michael Baker.
2. I seek the twenty-eight day extension of time requested herein primarily
because, since filing our previous request, we have associated Alexandra Shapiro
as new counsel for petitioners. Ms. Shapiro is a leading criminal appellate
attorney, with extensive experience presenting legal briefing and argument both in
the federal circuits and in this Court.
3. Ms. Shapiro has prior commitments that will make it impractical for her
to devote sufficient time to this case prior to the current filing deadline. She has a
3

reply brief in the Second Circuit due on October 4 (United States v. Joseph
Percoco, et al., No. 18-2990); she has a petition for rehearing en banc due in the
Second Circuit on October 25 (United States v. Mark Johnson, No. 18-1503); and
she has an oral argument in the Second Circuit on October 30 (United States v.
Edward Kosinski, No. 18-3065). All three cases are large, complex white collar
appeals presenting questions of first impression.
4. This office also faces an unusual number of briefing deadlines in the next
few weeks. This includes a petition for rehearing due in the Ninth Circuit on
October 3 (United States v. Joseph Shayota, No. 17-10270); a petition for review
due in the California Supreme Court on October 7 (People v. Richard Lamphere,
No. A152773); Rule 29 and 33 motions due in the Northern District of California
on October 15 (United States v. Brian Federico, No. CR-12-00862); an opening
brief due in the California Court of Appeal, Third Appellate District on October 25
(People v. Harpreet Singh, No. C088997) and an oral argument in the Ninth
Circuit scheduled for October 25 (Poonja v. Shah, No. 18-15629).
5. For the foregoing reasons, I respectfully request that an order be entered
extending the time to petition for certiorari in the above-captioned matter to and
including November 22, 2019.

4

Executed this 1st day of October, 2019, at San Francisco, California.

Dennis P. Riordan
Counsel of Record for
Petitioner Michael Baker

5

